February 19, 2020
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

No. 19-933, Monex Deposit Co., et al. v.
Commodity Futures Trading commission
Brief Amicus Curiae of New Civil Liberties Alliance
Urging Grant of Certiorari
CERTIFICATE OF SERVICE

Dear Mr. Harris:
I, Aditya Dynar, counsel for Amicus Curiae, do hereby declare that on February
19, 2020, as required by Supreme Court Rule 29.5, I have served by first-class mail,
postage pre-paid, the Brief Amicus Curiae of New Civil Liberties Alliance Urging Grant
of Certiorari on counsel for each party to the above proceeding. All parties required to be
served have been served as per the attached Service List.
Executed on February 19, 2020.

Aditya Dynar
Counsel for Amicus Curiae

1225 19th Street NW Suite 450, Washington DC 20036 (202) 869-5210

www.NCLAlegal.org

NCLA
Page 2 of 2

SERVICE LIST
Counsel for Petitioners:
Neil A. Goteiner
C. Brandon Wisoff
Elizabeth A. Dorsi
Farella Braun + Martel LLP
235 Montgomery St., 17th Floor
San Francisco, CA 94104
William M. Jay
Counsel of record
Jaime Santos
Benjamin Hayes
Goodwin Proctor LLP
1900 N. St. NW
Washington, DC 20036
(202) 346-4000 | wjay@goodwinlaw.com
Counsel for Respondent:
Noel J. Francisco
Counsel of record
U.S. Department of Justice
950 Pennsylvania Ave. NW
Washington, DC 20530
(202) 514-2217 | SupremeCtBriefs@usdoj.gov

